UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




            Airline Ticket Purchases


                     OIG-AMR-46-05-03




                                        March 2005
INSPECTOR GENERAL




       NATIONAL LABOR RELATIONS BOARD
                           WASHINGTON, DC 20570

March 11, 2005

I hereby submit a review of Airline Ticket Purchases, Report No. OIG-AMR-46-
05-03. This review was conducted to determine whether controls over
purchasing airline tickets are sufficient. This includes determining whether
charges for unused tickets were refunded, purchases for premium class travel
were properly justified, and reimbursements for tickets purchased by
individuals were appropriate.

Administrative Policy Circular 00-01 outlines the Agency’s guidance on
following Federal Travel Regulations. This guidance states that the
Government issued charge card must be used for all official Government travel
related expenses. In addition, the traveler is expected to use the National
Labor Relations Board's (NLRB) centrally-billed account or the individual’s
Government contractor issued charge card to procure all common carrier
tickets for official travel. Extraordinary costs, such as first or premium class
travel, may only be authorized in certain situations. The NLRB spent $254,139
on common carrier costs and purchased 1,056 airline tickets in FY 2004.

The Agency generally had sufficient controls over airline ticket purchases. We
did not identify any first or premium class ticket purchases and the Agency’s
procedures to control such purchases appear to be adequate. Tickets were
generally purchased from a contract carrier. Non-contract carrier purchases
were usually in situations in which a city pair fare did not exist. None of the
245 airline tickets purchased with individual travel cards were also paid with
the centrally-billed account.

A database obtained from one airline showed that all or part of four trips with
unused tickets were not refunded. This, along with an open credit of $3.10
due to the exchange of a ticket, resulted in a total of $744.90 that could have
been put to better use. We also identified one ex-employee who still had
approving capabilities in Travel Manager.
The draft report recommended that the Finance Branch Chief obtain credits for
unused airline tickets and apply credits to future travel. Finance received
refunds of $662.70 and a credit of $82.20 will be applied towards future travel.

The draft report also recommended that the Finance Branch Chief determine
why refunds or credits for unused tickets were not provided and evaluate
where the procedures need modification. All of the tickets in question were
purchased from one airline. The response to the draft report stated that
Finance contacted the airline and was informed that credits are not
automatically provided and that the traveler must request a refund. Finance
intends to develop a n administrative bulletin informing employees of the
airline's policy and the correct handling of these transactions.

An exit conference was held on February 4, 2005, with the Finance Branch
Chief and we sent him a draft report for his review and comment on February
7, 2005. He had no comment on the findings and has already completed
corrective actions for the two recommendations made in the draft report.
Therefore, we have no recommendations in the final report. The Finance
Branch Chiefs comments are presented in their entirety a s a n appendix to this
report.


                                                             I
                                   / ~ a n e E. Altenhofen
                                     Inspector General
                                       TABLE OF CONTENTS



BACKGROUND ......................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................2

FINDINGS ..............................................................................................3

FIRST AND PREMIUM CLASS TRAVEL...................................................3

CONTRACT CARRIER.............................................................................3

INDIVIDUAL GOVERNMENT TRAVEL CARDS ........................................4

UNUSED TICKETS .................................................................................4

TRAVEL MANAGER................................................................................5

APPENDIX
        Memorandum from the Finance Officer, Comments on Draft Audit
        Report - "Airline Ticket Purchases," dated March 8, 2005
                                 BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2005 appropriation authorizes 1,865 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $251,875,000 for FY 2005, less an across-the-board
reduction of .8 percent, leaving a net spending ceiling of $249,860,000.

The General Accounting Office, now known as the Government Accountability
Office (GAO), issued a report identifying fraud in claiming ticket costs and
excessive use of first or premium class travel at the Department of Defense
(DOD). In addition, GAO reported that DOD spent an estimated $100 million
for airline tickets that were not used and failed to seek refunds.

NLRB spent $254,139 in FY 2004 on common carrier costs. Of the 1,056
airline tickets purchased in FY 2004, 1,032 (98 percent) were electronic tickets
and 245 (23 percent) were charged to individual travel cards. The travel agency
charges $33 for each electronic ticket booked by an agent. The travel agent
charges $21 per transaction for reservations made online without agent
intervention. An additional fee is not charged to make changes to tickets,
either through the travel agent or the airline, if the airfare, airline, and cities
remain the same.

The eTravel Service (eTS) is part of eTravel, which was launched in response to
the President’s Management Agenda’s mission to improve the internal efficiency
and effectiveness of the Federal government. Currently, Headquarters and
some Regional Offices use Travel Manager, a web-based travel authorization
and expense system. The eTS will replace the functionality of Travel Manager
and will increase the integration of the reservation and document creation and
interface with the Agency’s financial system, Momentum. NLRB was scheduled
to implement the eTS provided by CW Government Travel, formerly known as
Carlson Wagonlit Travel (Carlson), on March 1, 2005, but implementation has
been delayed due to software problems.

With the implementation of the eTS, the Agency’s transaction fee for booking
an airline ticket online will be reduced to $10.50, and the fee for using an agent
will decrease to $24.50. Also with the change, travelers will be required to use
the eTS to purchase tickets. Currently, travelers can choose between using the
travel agent or purchasing tickets directly from the airline.



                                        1
                 OBJECTIVES, SCOPE, AND METHODOLOGY

This review was conducted to determine whether controls over purchasing
airline tickets are sufficient. This includes determining whether charges for
unused tickets were refunded, purchases for premium class travel were
properly justified, and reimbursements for tickets purchased by individuals
were appropriate.

We reviewed applicable sections of the Code of Federal Regulations (CFR)
affecting the purchasing of airline tickets, including a review of relevant
statutes and court decisions related to the period of time Federal agencies are
allowed to claim refunds and apply administrative offsets to goods and services
they purchased, but did not receive. We reviewed Agency policies and
procedures including Administrative Policy Circular (APC) 00-01, NLRB’s
Guidance on Following the Federal Travel Regulation (FTR), dated February 18,
2000, and Administrative Bulletin (AB) 01-20, Official Travel Credit Card
Abuse, dated June 18, 2001.

We interviewed Agency officials to identify procedures for processing travel
orders and travel vouchers, obligating funds, monitoring and processing
unused tickets, and to identify access levels for the travel management system.
We interviewed representatives of Carlson to determine the transaction fees
charged for the purchase of airline tickets, their obligation regarding the
booking of a non-contract city pair fare carrier, the purchase of first or
premium class travel, and charges incurred to change a reservation.

We tested a random sample of 76 tickets and all tickets over $1,000 purchased
using the centrally-billed account in FY 2004 to determine whether the traveler
utilized the contract carrier and city pair fare, if the tickets were used, whether
any of these were first or premium class tickets, and, if so, whether their use
was appropriate. We compared reimbursements to individuals for common
carrier expenses to purchases on the centrally-billed account to determine
whether duplicate payments for the same trip were made.

We obtained a database of all activity on the centrally-billed account from
Southwest Airlines, the only carrier that could provide the information. We
compared this data to the Citibank transaction information to determine
whether the centrally-billed travel card data was complete.

This audit was performed in accordance with generally accepted government
auditing standards during the period of November 2004 through March 2005.
We conducted this audit at NLRB Headquarters in Washington, DC.




                                         2
                                    FINDINGS

The Agency generally had sufficient controls over airline ticket purchases. We
did not identify any first or premium class ticket purchases and the Agency’s
procedures to control such purchases appear to be adequate. Tickets were
generally purchased from a contract carrier. Non-contract carrier purchases
were usually in situations in which a city pair fare did not exist. None of the
245 airline tickets purchased with individual travel cards were also paid with
the centrally-billed account.

A database obtained from one airline showed that all or part of four trips with
unused tickets were not refunded. This, along with an open credit of $3.10
due to the exchange of a ticket, resulted in a total of $744.90 that could have
been put to better use. We also identified one ex-employee who still had
approving capabilities in Travel Manager.


FIRST AND PREMIUM CLASS TRAVEL

Coach-class accommodations must be used for business travel unless the
Agency specifically authorizes/approves first class or premium class
accommodations. This can only be done when certain exceptions are met,
such as when coach-class accommodations are not reasonably available, to
accommodate a disability or special need, or to meet requirements in
exceptional security circumstances. A Carlson representative stated that they
are to notify the Finance Branch (Finance) of requests to book premium or first
class airfare. The Agency procedure is that the Chairman or the General
Counsel would approve all first or premium class travel. The Director of
Administration would approve such travel for the Chairman or the General
Counsel.

We did not identify any purchases of first or premium class tickets. The
Agency’s procedures for first and premium class tickets appear to be adequate.


CONTRACT CARRIER

Civilian employees of an agency are required to use a contract city pair fare if it
is available, unless certain conditions are met. These conditions generally
include if: (1) Space or a scheduled contract flight is not available in time to
accomplish the travel purpose, or use of contract service would require the
traveler to incur unnecessary overnight lodging costs which would increase the
total cost of the trip; (2) The contractor's flight schedule is inconsistent with
explicit policies of a Federal department or agency with regard to scheduling
travel during normal working hours; or (3) A non-contract carrier offers a lower
fare available to the general public, the use of which will result in a lower total

                                         3
trip cost to the Government, to include the combined costs of transportation,
lodging, meals, and related expenses.

Before purchasing a non-contract fare the traveler must meet one of the
exceptions and know or reasonably anticipate, based on the planned trip, that
the ticket will be used. The Agency must determine that the proposed non-
contract transportation is practical and cost-effective for the Government. If
these conditions are not met, additional costs or penalties incurred resulting
from unauthorized use of non-contract service are borne by the traveler.

Of the 76 items in the random sample, 13 tickets were purchased from non-
contract carriers. For 11 tickets, no contract carrier city pair fare existed. The
two remaining tickets (3 percent) were purchased from a non-contract carrier
without documenting a justification. Of the 16 tickets over $1,000 that we
reviewed, 2 of which were part of the random sample, 8 were purchased from
non-contract carriers; in all instances no city pair fare existed.


INDIVIDUAL GOVERNMENT TRAVEL CARDS

According to APC 00-01, common carrier transportation services should be
procured using the NLRB’s centrally-billed account or the individual’s
Government contractor issued charge card. Finance’s procedures for reviewing
travel vouchers include verifying the payment information of airline tickets
purchased utilizing individual government travel cards.

None of the 245 airline tickets purchased with individual travel cards were also
paid with the centrally-billed account. Our review of individual travel card
activity, however, identified multiple cards with questionable activity that was
not related to the purchase of airline tickets. This information was referred for
possible investigation.


UNUSED TICKETS

Federal regulations require that an agency’s travel accounting system must
identify unused tickets for refund; and collect unused, partially used, or
downgraded/exchanged tickets from travelers upon completion of travel.
According to the Agency’s contract with Carlson, the contractor’s automated
system will generate appropriate refunds to the NLRB for all unused electronic
tickets. The system should identify unused electronic tickets even if the
traveler does not notify the travel agency of the unused ticket.
We did not identify any unused and unrefunded airline tickets in our random
sample of 76 airline tickets purchased using the Agency’s centrally-billed
account. A review of all transactions from one airline (146 of 811 tickets),


                                        4
however, showed that Carlson’s automated system failed to generate
appropriate refunds to the NLRB for all unused electronic tickets. All or part of
four trips with unused tickets were not refunded. In addition, a credit of $3.10
was due from the exchange of a ticket. This resulted in a total of $744.90 that
could have been put to better use.

Information on unused and unrefunded tickets was forwarded to Carlson for
review. Carlson claimed that the tickets were refunded and suggested that we
contact the airline. The airline confirmed that credits or refunds were not
provided for these tickets. Finance was also unable to locate the credits.


TRAVEL MANAGER

The GAO Standards for Internal Control in the Federal Government list general
controls that apply to all information systems. These controls include access
security control that protects the systems and network from inappropriate
access and unauthorized use by hackers and other trespassers or
inappropriate use by Agency personnel. Specific control activities include the
deactivation of former employees’ passwords.

We identified one ex-employee who still had approving capabilities in Travel
Manager. Travel Manager can be accessed via the Internet. The ex-employee
could access Travel Manager and approve travel electronically which could
result in a potential misuse of funds. Finance stated that the removal of a user
would disrupt or destroy the records of the departed user. Therefore, Finance
was not removing users in order to maintain the integrity of the data. During
the audit, however, Finance learned that users could be deactivated without
disrupting the records and has already initiated corrective action.

Travel Manager is used by Headquarters, the Division of Judges, and 10 field
offices. Due to the upcoming conversion to eTS, Finance has slowed the
process of converting field offices to the centralized version of Travel Manager.




                                        5
APPENDIX
         UNITED STATES GOVERNMENT
         National Labor Relations Board
         Division of Administration
         Memorandum




                                                                                           March 8, 2005
TO:        Jane E. Altenhofen
           Inspector General
         Cr;-
FROM:      Karl Rohrbaugh
           Finance Officer

SUBJECT: Comments on Draft Audit Report - "Airline Ticket Purchases"
           (OIG-AMR-46)

           This is in response to your memorandum dated February 7,2005, in which you requested
           comments on the draft audit report on airline ticket purchases. In your memo, you
           requested that we also indicate our agreement or disagreement with each of the report's
           findings and recommendations.

           We have reviewed the report and have no comments with respect to the findings of the
           report.


           Our comments regarding the report's recommendations are as follows:

           1. Obtain credits for unused airline tickets and apply credits to future travel.

           Of the refunds identified for Southwest Airlines, they were received on January 5 and
           January 6,2005, for all but $3.10. We are not going to pursue obtaining a credit for the
           $3.10. The non-refundable ticket in question is supposed to be used during the month of
           March by the employee in the Resident office in San Antonio who originally purchased
           the ticket. It will be verified that the ticket was actually used.

           As noted above, the non-refundable ticket will be used for fiscal year 2005 travel.
           However, the refknded tickets were purchased in fiscal year 2004 and cannot be used for
           future travel.

           2. Determine why refunds or credits for unused tickets were not provided and
           evaluate where the procedures need modification.

           It was determined that all of the unused tickets were purchased from Southwest Airlines.
           Southwest was contacted and we were informed that it does not automatically provide
           credits for unused tickets and/or legs of tickets. The traveler must request the refund.
           Southwest also stated that, if the refund is not requested within a year, it will not issue a
Page Two
Jane E. Altenhofen



refund. In contrast, the other major airlines, if not notified, will automatically refund the
ticket .90 days after the last departure date.

Therefore, an Administrative Bulletin will be issued informing employees of Southwest
Airline's policy and recommending that they notify Carlson Wagonlit of any unused
tickets or cancellations so that a refund is received prior to 90 days.

Thank you for the opportunity to comment on the draft report. If you have any questions,
please contact me.



cc: The Board
    General Counsel
    Director of Administration
